No. 20-

in the ifoupreme Court of the Eniteb ikateo
DAVID MING PON, PETITIONER
v.
UNITED STATES, RESPONDENT
CERTIFICATE OF SERVICE
I, as a member of the Supreme Court bar, certify that on May 10, 2021, three
copies of the Petition for a Writ of Certiorari in the above-captioned case were served
by U.S. Mail, as required by U.S. Supreme Court Rule 29.5(c), on the following:
Elizabeth B. Prelogar
ACTING SOLICITOR GENERAL
Room 5616
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2203
Counsel for Respondent
The following email addresses have also been served electronically:
SupremeCtBriefs@usdoj.gov

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioner

